2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-968

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.
STANLEY C. PRECZEWSKL, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF CHRISTIAN
LEGAL SOCIETY AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 4540 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 29th day of September, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chk
RENEE J. GOSS 0. ( eda A
Notary Public

‘My Comm. Exp. September 5, 2023 -
Affiant 40100
